No. 19-783

Supreme Court of the United States

NATHAN VAN BUREN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar of
this Court representing a party on whose behalf service is made, and I served three copies
of the BRIEF OF THE R STREET INSTITUTE, PUBLIC KNOWLEDGE, LINCOLN NETWORK, ENGINE ADVOCACY, THE INNOVATION DEFENSE FOUNDATION, AND THE
AMERICAN ANTITRUST INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER
in the above-identified case, upon all parties required to be served. Service was performed
by U.S. priority mail to counsel of record listed on the following page.
Respectfully submitted,
Dated: July 7, 2020
CHARLES DUAN
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae

LIST OF PARTIES SERVED
JEFFREY L. FISHER
STANFORD LAW SCHOOL SUPREME COURT LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu
Counsel for Petitioner Nathan Van Buren
NOEL J. FRANCISCO
SOLICITOR GENERAL
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent the United States

